Case: 18-1801

Document: 00117481519

Page: 1

Date Filed: 08/26/2019

Entry ID: 6277817

United States Court of Appeals
For the First Circuit
No. 18-1801
MICHAEL COWELS and MICHAEL MIMS,
Plaintiffs, Appellants,
v.
THE FEDERAL BUREAU OF INVESTIGATION,
CHRISTOPHER WRAY, and PAULA WULFF,
Defendants, Appellees.

APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS
[Hon. Richard G. Stearns, U.S. District Judge]

Before
Thompson, Lipez, and Barron,
Circuit Judges.

Ezekiel L. Hill, with whom David J. Apfel, Kathleen
McGuinness, and Goodwin Procter LLP were on brief, for appellant
Michael Cowels.
Elliot M. Weinstein on brief for appellant Michael Mims.
Annapurna Balakrishna, Assistant United States Attorney, with
whom Andrew E. Lelling, United States Attorney, was on brief, for
appellees.

August 26, 2019

Case: 18-1801

Document: 00117481519

Page: 2

LIPEZ, Circuit Judge.

Date Filed: 08/26/2019

Entry ID: 6277817

Appellants Michael Cowels and

Michael Mims were convicted of murder in state court and spent
twenty years behind bars serving life sentences. After new testing
of trial evidence cast doubt on the verdict, they were granted a
new trial.

Subsequent DNA testing of a swab taken from the inside

of a condom recovered in the vicinity of the victim during the
initial investigation revealed an unknown male DNA profile. Cowels
and Mims obtained a state court order requiring Massachusetts to
upload the DNA profile into a state database of DNA records for
comparison purposes.

No matches were found.

The FBI, however,

refused to upload the profile into the national DNA database after
determining that it was ineligible for upload.

Cowels and Mims

went to federal court to compel the FBI to upload the profile, but
the district court dismissed their suit based on its conclusion
that the FBI's eligibility determination is unreviewable.
Without suggesting that the district court erred in its
analysis, we assume that the FBI's eligibility determination is
reviewable.
was

not

Having done so, we conclude that the determination

arbitrary

and

capricious.

We

therefore

affirm

the

dismissal of appellants' suit.
I.
A. Legal Background
The DNA Identification Act of 1994 authorized the FBI
Director to establish a DNA index, including DNA identification

- 2 -

Case: 18-1801

Document: 00117481519

Page: 3

Date Filed: 08/26/2019

Entry ID: 6277817

records of persons charged or convicted of crimes and "analyses of
DNA

samples

recovered

from

crime

scenes,"

34

U.S.C.

§ 12592(a)(1)-(2), "to facilitate law enforcement exchange of DNA
identification information," id. § 12592 (title).

Pursuant to

this authority, the FBI Director created the Combined DNA Index
System ("CODIS"), which operates at the local, state, and national
levels.

The

State

DNA

Index

System

("SDIS")

is

managed

by

participating states, and the National DNA Index System ("NDIS"),
which aggregates all the DNA records contained in the state
databases, is managed by the FBI.1

See generally Boroian v.

Mueller, 616 F.3d 60, 63 (1st Cir. 2010) (describing CODIS).
The

DNA

Identification

Act

itself

lays

out

certain

minimum standards for determining whether a DNA record may be
uploaded to the CODIS system.
be

uploaded

accredited
standards

if

the

For example, DNA records may only

underlying

laboratory
established

in

analysis

was

accordance

with

by

FBI.

the

performed
quality
34

by

an

assurance
U.S.C.

§ 12592(b)(1)-(2)(A)(i).

The FBI's NDIS Operational Procedures

Manual

provides

("the

Manual")

1

additional

guidelines

for

For context, the Massachusetts SDIS contains about 147,290
offender and arrestee DNA profiles, while the NDIS contains over
17 million offender and arrestee DNA profiles. See Federal Bureau
of
Investigation,
CODIS
NDIS
Statistics
(June
2019),
https://fbi.gov/services/laboratory/biometric-analysis/codis/ndi
s-statistics (last visited August 22, 2019).

- 3 -

Case: 18-1801

Document: 00117481519

Page: 4

Date Filed: 08/26/2019

Entry ID: 6277817

determining whether DNA records are eligible for inclusion in the
NDIS.

Of relevance to this appeal, pursuant to the Manual, a DNA

record that "originate[s] from and/or [is] associated with a crime
scene" is eligible for upload if it is "believed to be attributable
to the putative perpetrator."2
B. Factual Background
In 1994, a Massachusetts jury convicted Cowels and Mims
of murdering Belinda Miscioscia, who was found brutally stabbed to
death behind a woodworking shop in a yard known as a location for
sexual trysts.

Among the evidence presented at trial were two

bloody towels recovered from the home of a friend of Cowels and
Mims, which bolstered the friend's testimony that Cowels and Mims
came to his home the night of the murder, made incriminating
statements, and cleaned up in his bathroom.

Analysis of the only

towel with a large enough amount of blood for testing neither
identified nor excluded the men or the victim as sources.

At

trial, a state forensic scientist also testified about collecting
"an older, wrinkled condom . . . covered with dirt and debris as
well as sawdust" from the vicinity of the body.

The forensic

scientist testified that she tested the condom for hair and fibers

2

We base our discussion of the NDIS Manual on the version
included by the parties in the Joint Appendix and relied on by the
district court, which became effective in July 2017. The parties
have not suggested that any other version of the Manual is relevant
to this appeal.
- 4 -

Case: 18-1801

Document: 00117481519

Page: 5

Date Filed: 08/26/2019

Entry ID: 6277817

and swabbed the inside of the condom, confirming the presence of
seminal fluid residue.

The condom was not tested for DNA.

Twenty years into serving their life sentences, Cowels
and Mims were granted a new trial by the Massachusetts Supreme
Judicial Court based on new DNA testing of the previously tested
towel.

See Commonwealth v. Cowels, 24 N.E.3d 1034, 1037 (Mass.

2015).

The new testing confirmed that the blood did not come from

either man or from the victim.

In preparation for a new trial,

other items collected during the initial investigation were also
DNA-tested.

Testing by a state forensic scientist of the swab

taken from inside the condom indicated sperm and non-sperm male
DNA from more than one contributor.

Only one of the DNA profiles

was suitable for comparison but it did not match either Cowels or
Mims.3

However, the forensic scientist concluded that this DNA

profile was ineligible for upload to CODIS.
Cowels and Mims filed a motion in Massachusetts Superior
Court to compel the Commonwealth to submit the condom DNA profile
to the SDIS and to share the results.

They contend that uploading

the profile may lead to apprehension of the true killer, who they
speculate could be any one of a number of violent and jealous men

3

We follow the parties in describing the relevant DNA
information that Cowels and Mims want entered in the national
database as a "DNA profile."
The Manual defines this term as
"[t]he genetic constitution of an individual at defined locations
(also known as loci) in the DNA."

- 5 -

Case: 18-1801

Document: 00117481519

Page: 6

Date Filed: 08/26/2019

Entry ID: 6277817

the victim was involved with in the months before her death.

The

Commonwealth opposed the motion, arguing that the DNA profile did
not qualify for submission to CODIS pursuant to FBI standards.
Recognizing that uploading the profile "risks implicating a person
entirely innocent of this murder, who merely happened to be having
sex in the same area, unrelated to th[e] victim or to the time of
her

death,"

the

Superior

Court

nonetheless

ordered

the

Commonwealth to submit the DNA profile to the SDIS. Sup. Ct. Order
Dec. 4, 2017, at 2-3.

The Commonwealth entered the DNA profile

into the state database, but there was no match.
Dorothea

Collins,

the

CODIS

administrator

for

the

Massachusetts State Police Crime Laboratory, emailed the FBI,
informing the agency about the court order and reiterating the
Commonwealth's view that the DNA profile is ineligible for upload
to either the SDIS or the NDIS, but requesting that the FBI review
for itself whether the DNA profile is eligible for upload to the
national database.

Collins attached to her email Cowels's and

Mims's motion in the Superior Court, the court order, and her
affidavit in the Superior Court matter, in which she stated
(1) that the victim's body was found "clothed, outside on a
platform," and that the condom "was found on the ground between
the platform and a tank, covered in sawdust, dirt and vegetation";
and (2) that the victim's DNA was not part of the mixture taken
from the inside of the condom.

Collins thus concluded in her

- 6 -

Case: 18-1801

Document: 00117481519

Page: 7

Date Filed: 08/26/2019

Entry ID: 6277817

affidavit that, "[a]lthough the condom was collected from the crime
scene during the course of the investigation, its connection to
Ms. Miscioscia is not established to support a CODIS upload."
Paula Wulff, Unit Chief of the FBI Office of the General Counsel's
Forensic Science Law Unit, responded to Collins's email that the
FBI had reviewed the attached materials and determined that the
DNA profile was not eligible for upload to the NDIS because the
condom was not sufficiently linked to the victim.
An

assistant

district

attorney

followed

up

with

a

request that the FBI consider performing a manual keyboard search
-- which is a method of comparing a DNA record to other records in
CODIS without uploading the record -- even if they would not upload
the

profile

to

the

NDIS.

The

assistant

district

attorney

explained, "[w]hile we have shared the FBI's view of the relevance
of this evidence in our murder case, . . . I am respectfully
requesting that this search be done as a courtesy to me and my
office, out of respect for the [c]ourt's prior order, and my desire
to avoid the eventual trial judge, and possibly even the jury,
misunderstanding the failure to upload the DNA profile in question
to NDIS as 'the government being obstructionist.'"

Wulff also

rebuffed this request and shared a more in-depth written response
explaining the FBI's determination that the DNA profile was not
eligible for upload to the NDIS or for a manual keyboard search.

- 7 -

Case: 18-1801

Document: 00117481519

Page: 8

Date Filed: 08/26/2019

Entry ID: 6277817

The response explained that the FBI had reviewed case
materials,

including

the

Superior

Court

order,

Collins's

affidavit, and case notes from the 1993 murder investigation.

The

response stated that the case notes described the condom as being
discovered "under sawdust and debris -- covered with sawdust, dirt,
dried vegetation etc. breaking apart."

(Emphasis by the FBI.)

The response also stated, "[t]here is no indication in the material
provided that the condom was forensically connected to the victim."
Citing

the

NDIS

Operational

Procedures

Manual,

the

response

concluded, "[f]rom the information that has been provided to the
FBI, nothing forensically demonstrates a link between the victim
and the subject condom to consider the obtained profile as coming
from a putative perpetrator."
At some point during the course of the back-and-forth
between the Commonwealth and the FBI, Cowels and Mims asked the
Superior Court to specifically order the FBI to upload the profile.
The court, however, declined this request, citing a lack of
jurisdiction.
Cowels and Mims then filed a suit for declaratory and
injunctive relief in federal court against the FBI, Wulff, and FBI
Director Christopher Wray (collectively, "the FBI"), seeking an
order directing the FBI to upload the condom DNA profile to the
NDIS or to perform a manual keyboard search, and to report the
results.

In

relevant

part,

they

- 8 -

contend

that

the

FBI's

Case: 18-1801

Document: 00117481519

Page: 9

Date Filed: 08/26/2019

Entry ID: 6277817

determination that the DNA profile is ineligible for upload to the
NDIS or for a manual keyboard search is arbitrary and capricious.
The district court granted the FBI's motion to dismiss after
concluding that the agency's eligibility determination is not
subject to judicial review.

The court also stated that, even

assuming the determination is subject to judicial review, Cowels
and Mims were not likely to prevail because "[n]othing in the FBI's
decision rises to [the] level of capriciousness or indifference."
Cowels v. FBI, 327 F. Supp. 3d 242, 250 n.2 (D. Mass. 2018).

This

timely appeal followed.4
II.
We review the district court's grant of the FBI's motion
to dismiss de novo and may affirm on any ground supported by the
record.

Flores v. OneWest Bank, F.S.B., 886 F.3d 160, 164 (1st

Cir. 2018).
The Administrative Procedure Act ("APA") waives federal
sovereign immunity for suits alleging injury by agency action.
5 U.S.C. § 702. However, "agency action is not subject to judicial
review 'to the extent that' such action 'is committed to agency
discretion by law.'" Lincoln v. Vigil, 508 U.S. 182, 190-91 (1993)
(quoting 5 U.S.C. § 701(a)(2)).

The district court determined

4

Cowels and Mims are not appealing the district court's
dismissal of their constitutional claims, which we do not otherwise
discuss.
- 9 -

Case: 18-1801

Document: 00117481519

Page: 10

Date Filed: 08/26/2019

Entry ID: 6277817

that this case presents one of these "rare instances where statutes
are drawn in such broad terms that in a given case there is no law
to apply."

Cowels, 327 F. Supp. 3d at 249 (quoting Citizens to

Preserve Overton Park, Inc. v. Volpe, 401 U.S. 402, 410 (1971))
(internal quotation marks omitted).

In other words, because the

DNA Identification Act merely authorizes the FBI to create a
database that meets certain minimum standards, but does not require
the inclusion of any material in that database, "the statute is
drawn so that a court would have no meaningful standard against
which to judge the agency's exercise of discretion."

Heckler v.

Chaney, 470 U.S. 821, 830 (1985).
Cowels and Mims disagree.
that

the

Act

alone

provides

They do not appear to contend

judicially

reviewable

standards.

Rather, they argue that the Act when read in conjunction with the
NDIS Manual provides meaningful standards by which to review the
FBI's determination that the DNA profile was not eligible for
upload. As they put it, "[e]stablishing the NDIS Manual's policies
and

procedures

established

cabined

those

the

policies

FBI's
and

discretion,

procedures,

the

and

having

FBI

cannot

disregard them."
We need not decide this difficult reviewability issue.
Where a question of statutory jurisdiction is complex, but the
merits of the appeal are "easily resolved against the party
invoking [] jurisdiction," we can assume jurisdiction for purposes

- 10 -

Case: 18-1801

Document: 00117481519

of deciding the appeal.

Page: 11

Date Filed: 08/26/2019

Entry ID: 6277817

In re Fin. Oversight & Mgmt. Bd. for P.R.,

916 F.3d 98, 114 n.13 (1st Cir. 2019); see also Royal Siam Corp.
v. Chertoff, 484 F.3d 139, 144 (1st Cir. 2007) (assuming statutory
jurisdiction before determining whether an agency decision was
arbitrary and capricious).
the

merits,

readily

We do so in this case and proceed to

concluding

that

the

FBI's

eligibility

determination was not arbitrary and capricious when measured by
any cognizable standard in the Act or the Manual.5
An agency action is arbitrary and capricious if the
agency "relied on improper factors, failed to consider pertinent
aspects of the problem, offered a rationale contradicting the
evidence before it, or reached a conclusion so implausible that it
cannot be attributed to a difference of opinion or the application
of agency expertise."
Serv.,

838

F.3d

42,

Bos. Redevelopment Auth. v. Nat'l Park
47

(1st

Cir.

5

2016)

(quoting

Associated

Under the APA, a reviewing court may, inter alia, "compel
agency action unlawfully withheld or unreasonably delayed," 5
U.S.C. § 706(1), or "hold unlawful and set aside agency action,
findings, and conclusions found to be . . . arbitrary, capricious,
an abuse of discretion, or otherwise not in accordance with law,"
id. § 706(2)(A). Appellants pleaded both bases for judicial review
before the district court, but, on appeal, they focus on their
contention that the FBI's eligibility determination regarding the
DNA profile was arbitrary and capricious.
We reject the FBI's
suggestion that the "gravamen" of appellants' case is a challenge
to agency action "unlawfully withheld" and that appellants did not
adequately plead that the FBI's eligibility determination was
arbitrary and capricious.

- 11 -

Case: 18-1801

Document: 00117481519

Page: 12

Date Filed: 08/26/2019

Entry ID: 6277817

Fisheries of Me., Inc. v. Daley, 127 F.3d 104, 109 (1st Cir.
1997)).
Citizens

Pursuant to this "highly deferential" standard of review,
Awareness

Network,

Inc.

v.

U.S.

Nuclear

Regulatory

Comm'n, 59 F.3d 284, 290 (1st Cir. 1995), we will uphold an agency
determination if it is "supported by any rational view of the
record," Atieh v. Riordan, 797 F.3d 135, 138 (1st Cir. 2015).
Cowels

and

Mims

contend

that

the

FBI's

eligibility

determination was arbitrary and capricious because the reasons the
agency provided to support its determination that the DNA profile
was not "attributable to the putative perpetrator" -- the standard
from the Manual -- do not withstand scrutiny.6

We disagree.

In

the explanation of its eligibility determination, the FBI focused
on (1) the condition of the condom, and (2) the lack of any forensic
connection between the condom and the victim.
reasons

support

the

FBI's

eligibility

Both of these

determination.

The

condition of the condom when found -- "covered with sawdust, dirt,
dried vegetation etc. breaking apart" -- supports a conclusion
that the condom was not temporally related to the murder.

And the

lack of DNA evidence tying the condom to the victim supports a

6

In the explanation of its eligibility determination, the
FBI stated that a manual keyboard search is "an exceptional
mechanism that is used in exigent circumstances." Appellants do
not appear to challenge the FBI's implicit conclusion that exigent
circumstances supporting a manual keyboard search do not exist in
this case regardless of whether the DNA profile was eligible for
upload.
- 12 -

Case: 18-1801

Document: 00117481519

Page: 13

Date Filed: 08/26/2019

Entry ID: 6277817

conclusion that, given the condition of the condom, uploading the
DNA profile could implicate an innocent person rather than reveal
the perpetrator.
Cowels's and Mims's attempts to poke holes in the FBI's
reasons for its determination are unavailing.

Regarding the

condition of the condom, they point to the fact that the condom
was collected and tested by a forensic scientist at the time of
the original investigation, and that the Commonwealth DNA-tested
the condom swab after they were granted a new trial.

They argue

that this testing shows that the Commonwealth believed the condom
was connected to the murder despite its condition.

Moreover, they

contend that the Commonwealth changed its view only when it became
clear that the condom could be exculpatory.
us

does

not

necessarily
perpetrator.

support

viewed

the

the

contention

condom

as

But the record before

that

connected

the
to

Commonwealth
the

putative

As noted, the forensic scientist who collected the

condom testified at trial that it was "an older, wrinkled condom
. . . covered with dirt and debris as well as sawdust" (emphasis
added), and it does not appear that the condom featured in the
prosecution's case at trial, see Cowels, 24 N.E.3d at 1038-1040.
Similarly, we cannot glean from the mere fact that the Commonwealth
DNA-tested multiple items, including the condom swab, after the
men were granted a new trial, that the Commonwealth saw the condom
as related to the perpetrator until it was determined to be

- 13 -

Case: 18-1801

Document: 00117481519

potentially exculpatory.

Page: 14

Date Filed: 08/26/2019

Entry ID: 6277817

Most importantly, we do not see how any

shift in the Commonwealth's position undermines the FBI's ability
to make its own independent judgment, on the basis of undisputed
facts,

about

the

condition

of

the

condom

and

its

temporal

connection to the murder.
Regarding the lack of a forensic connection between the
condom and the victim, appellants contend that the FBI "ignore[d]
the fact that the Swab DNA Profile was not taken from the Condom
but from the Swabs of the inside of the Condom, and that the Condom
itself" -- that is, the outside of the condom, where the victim's
DNA would more likely be found -- "was never tested for DNA."7
They therefore suggest that the FBI's eligibility determination
was based in part on "the arbitrary and capricious view that the
inside of the Condom could somehow include [the victim]'s DNA."
Some of the language in the FBI's written explanation of its
eligibility determination does suggest that the agency was not
fully attuned to the distinction between the DNA testing of the
swab from the inside of the condom and testing of the outside of
the condom, which was never performed.

See, e.g., FBI Response to

NDIS Upload Request, at 1 (noting the absence of the victim's DNA

7

The parties have not contended before us that the outside
of the condom can now be tested to determine whether the victim's
DNA is present.
Indeed, at oral argument, appellants' counsel
explicitly stated that he was not representing that there is a
possibility that the outside of the condom can now be tested.

- 14 -

Case: 18-1801

Document: 00117481519

Page: 15

Date Filed: 08/26/2019

Entry ID: 6277817

"as would be expected had the condom come in contact with the
victim").
However, the FBI's entire explanation makes reasonably
clear that the agency's focus was on the absence of any DNA
connection in the record between the condom and the victim -- a
lack of connection that appellants do not contest -- rather than
on

a

misguided

understanding

that

testing

had

definitively

established that the condom had never come into contact with the
victim.8

In other words, the FBI correctly noted that the record

before it did not establish any DNA connection between the condom
and the victim.

And we readily conclude that this absence of

evidence was a rational reason, along with the condom's condition,
for the FBI's determination that the swab DNA profile could not be
"attribut[ed] to the putative perpetrator," and therefore was
ineligible for upload to the NDIS.9

8

We do not rely on the FBI's contention, seemingly first
raised at oral argument, that there was effectively no distinction
between the outside and the inside of the condom because it was
breaking apart.
9

Because we affirm on the basis that the FBI's eligibility
determination was not arbitrary and capricious, we do not opine on
the FBI's argument that Cowels and Mims would not be entitled to
information resulting from comparing the condom DNA profile with
DNA records in the NDIS.

- 15 -

Case: 18-1801

Document: 00117481519

Page: 16

Date Filed: 08/26/2019

Entry ID: 6277817

III.
For the foregoing reasons, we affirm the dismissal of
appellants' claims.
So ordered.

- 16 -

